Nos. 19-251 & 19-255
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION, Petitioner,
v.
MATTHEW RODRIQUEZ, Respondent.
THOMAS MORE LAW CENTER, Petitioner,
v.
MATTHEW RODRIQUEZ, Respondent.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

BRIEF OF CAMPAIGN LEGAL CENTER,
CITIZENS FOR RESPONSIBILITY AND
ETHICS IN WASHINGTON, COMMON CAUSE,
AND LEAGUE OF WOMEN VOTERS OF
CALIFORNIA AS AMICI CURIAE IN SUPPORT
OF RESPONDENT
CERTIFICATE OF SERVICE
I hereby certify that on April 14, 2021, I served the corrected Brief of Amici
Curiae Campaign Legal Center, Citizens for Responsibility and Ethics in
Washington, Common Cause, and League of Women Voters of California by
transmitting digital copies via electronic mail to the following counsel for the
Petitioners and Respondent:
PETITIONER AMERICANS FOR
PROSPERITY FOUNDATION:
Derek L. Shaffer
Quinn Emanuel Urquhart
& Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com

PETITIONER THOMAS MORE LAW
CENTER:
John J. Bursch
Alliance Defending Freedom
440 First Street NW, Suite 600
Washington, DC 20001
jbursch@adflegal.org

RESPONDENT:
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
Aimee.Feinberg@doj.ca.gov
Printed copies of the corrected brief were further provided upon request to
counsel for Petitioners and Respondent.
Executed on April 14, 2021.
______________________________
Tara Malloy
Campaign Legal Center
1101 14th St. NW, Suite 400
Washington, DC 20005
(202) 736-2200
tmalloy@campaignlegalcenter.org
Counsel for Amici Curiae

